                                         December 11, 2012

The Honorable Barbara Mikulski
United States Senate
Washington, D.C. 20510

Dear Senator Mikulski:

In a January 18, 2012 letter, you asked that we evaluate the Social Security Administration’s
(SSA) compliance with Equal Employment Opportunity Commission (EEOC) orders and the
accuracy of the Agency’s reporting. This request was in response to an ongoing equal
employment opportunity complaint alleging SSA officials submitted inaccurate documentation
as proof of compliance with the EEOC. On February 15, 2012, the U.S. Court of Appeals for the
Fourth Circuit issued a decision in the case of Barbara M. Murchison v. Michael J. Astrue (No.
10-1200, 4th Cir. 2012) holding that SSA misled the EEOC. Because of this decision, we shifted
the focus of our review from the individual complaint on which the Court had ruled to a broader
review of SSA’s compliance with EEOC orders.

The enclosed report presents the results of our review. To ensure SSA is aware of the
information provided to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Misha Kelly, Special Agent-in-Charge of Congressional Affairs at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue




              WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                        6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
   CONGRESSIONAL RESPONSE
          REPORT
The Social Security Administration’s Compliance with
     Equal Employment Opportunity Commission
                      Decisions


                  A-13-12-22143




                  December 2012
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                          Background
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA)
complied with adverse decisions 1 from the Equal Employment Opportunity Commission
(EEOC).

BACKGROUND
According to Federal regulations, 2 each Federal agency must maintain a program to
promote equal opportunity as well as identify and eliminate discriminatory practices and
policies. 3 As part of its program, the agency must provide for the receipt and
processing of discrimination complaints. 4 Further, the agency must ensure it fairly and
thoroughly investigates individual complaints and takes timely action. 5 When the
agency or EEOC concludes an individual has been discriminated against, the agency
shall provide full relief. 6

The EEOC is responsible for enforcing Federal laws 7 that make it illegal to discriminate
against a job applicant or employee because of their race, color, religion, gender,
national origin, age, disability, or genetic information. The laws apply to all work
situations including hiring, firing, promotions, harassment, training, wages, and benefits.

Under the Office of the Deputy Commissioner for Human Resources, the Office of Civil
Rights and Equal Opportunity (OCREO) provided overall management of the Agency’s
equal opportunity and diversity programs, including directing the Agency’s
discrimination complaints program. Additionally, under the Office of the Deputy



1
 For the purpose of this review, the term “adverse decision” refers to decisions in which the EEOC
ordered SSA to perform certain actions, such as paying compensatory damages, conducting training, etc.
2
    29 C.F.R. § 1614.
3
    29 C.F.R. § 1614.102(a).
4
    29 C.F.R. § 1614.102(c)(4).
5
    29 C.F.R. § 1614.102(c)(5).
6
    29 C.F.R. § 1614.501(a).
7
  Relevant federal laws include Title VII of the Civil Rights Act of 1964, the Age Discrimination in
Employment Act of 1967, the Rehabilitation Act of 1973, Equal Pay Act of 1963, Title I of the Americans
with Disabilities Act of 1990, the Americans with Disabilities Act Amendments Act of 2008, the Genetic
Information Nondiscrimination Act of 2008, and the Pregnancy Discrimination Act of 1978. (See
Appendix B for more details.)


SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                                      1
Commissioner for Operations, each Regional Commissioner had a Civil Rights and
Equal Opportunity (CREO) staff that managed the EEO program for their region. See
Appendix C for a flowchart of the complaint process.

In a January 18, 2012 letter, Senator Barbara Mikulski requested our assistance in
evaluating SSA’s compliance with EEOC orders and the accuracy of the Agency’s
reporting. This request was in response to an ongoing EEO complaint alleging SSA
officials submitted inaccurate documentation as proof of compliance with the EEOC.
While we were gathering information to address the Senator’s request, on
February 15, 2012, the U.S. Court of Appeals for the Fourth Circuit issued a decision
holding that SSA misled the EEOC in this case. 8 Therefore, we shifted our focus from
the individual complaint on which the Court had ruled to a broader review of SSA’s
compliance with EEOC orders.

To conduct our assessment, we independently researched the EEOC’s Website to
identify adverse decisions made against SSA from January 1, 2010 to April 30, 2012.
We identified 41 adverse decisions made during that timeframe. According to the
EEOC’s Website of Federal sector appellate decisions, 9 some decisions are not
available online. Therefore, we coordinated with OCREO to identify additional
decisions. Upon further review of OCREO’s compliance logs and the EEOC’s list of
Federal appeals, we identified an additional 19 adverse decisions, totaling 60 decisions.
Based on information we received during our review, we excluded five decisions
because the complaint had been withdrawn or the Agency and the complainant had
reached a settlement agreement. See Appendix D for our scope and methodology and
Appendix E for details regarding these decisions.




8
    Barbara M. Murchison v. Michael J. Astrue, No.   10-1200, 4th Cir. 2012, p. 12.
9
    http://www.eeoc.gov/federal/decisions.cfm.


SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                    2
                                                              Results of Review
We reviewed 55 adverse decisions involving 177 actionable items. 10 Of the 177 items,
45 were still pending 11 at the time of our review. For the remaining 132 actionable
items, we determined SSA had complied with the EEOC orders for 108. However, for
26 of the 108 items, the Agency did not complete the actions timely. Additionally, we
found SSA did not comply with the EEOC orders for 13 items. 12 OCREO acknowledged
these items were not completed or not completed timely in accordance with the EEOC’s
orders. Also, OCREO offered no assertions or evidence that SSA was disputing, or had
disputed, its compliance obligations for any of the 39 above-noted EEOC orders.
Finally, we could not determine compliance for 11 items because of a lack of
documentation. 13

Compliance Assessment
Most of the EEOC decisions we reviewed involved more than one actionable item. For
example, the decision may have ordered the Agency to pay compensatory damages,
restore leave, pay attorney fees, conduct training, and consider disciplinary actions.
The 55 EEOC decisions in our review contained 177 actionable items.

Compliance with EEOC decisions is mandatory and is subject to judicial enforcement. 14
Complainants who believe an Agency has not complied with an EEOC order may file a
Petition for Enforcement with the EEOC. 15 The Agency is required to submit
documentation to the EEOC identifying the corrective actions it has taken to comply with
a decision. To assess SSA’s compliance with EEOC decisions, we obtained and
reviewed various documents provided by OCREO. In addition, we interviewed
15 (25 percent) of the complainants 16 to obtain their opinion on whether they received
full restitution from SSA, in accordance with the EEOC’s decisions.

10
     The term actionable item refers to each action the EEOC ordered the Agency to complete.
11
   Pending refers to those items in which the action is not yet due, the case is in litigation, or a dispute is
ongoing. EEOC’s compliance monitoring and enforcement activity ceases until a decision is made on
pending actions such as an appeal, reconsideration, or hearing. The EEOC will issue a cease activity
letter to SSA once all actionable items are completed for a case. We excluded pending actions from our
analysis.
12
     These 13 items involve 4 decisions.
13
     These 11 items involve 8 decisions.
14
     29 C.F.R. § 1614.502.
15
     29 C.F.R. § 1614.503.
16
  We did not interview the remaining complainants because (a) after two attempts, we could not reach
the complainant, (b) the case is still pending, (c) a settlement agreement was reached, (d) the complaint
was withdrawn, or (e) the status of the case had not yet been determined.


SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                                              3
Through our analysis, we determined 45 of the 177 actionable items were still pending
as of August 2012. For the remaining 132 items, we concluded SSA complied with
108 (82 percent) of the EEOC orders. However, 26 of those items were not completed
timely. Additionally, we found SSA did not comply with the EEOC orders for
13 (10 percent) of the items. Further, we could not determine compliance for
11 (8 percent) of the actionable items because of the lack of documentation
(see Chart 1).
                                Chart 1: Compliance Summary




Compliance Actions Taken
Of the 132 actionable items, we determined SSA complied with 108 (82 percent) of the
EEOC orders. However, 26 (20 percent) items were not completed timely—ranging
from approximately 1 week to 8 months late. With each decision, the EEOC typically
identified a timeframe for when the Agency should complete the action (that is, 30 or
60 days after the decision becomes final). For these 26 items, we determined the
Agency had taken the specific action ordered by the EEOC, but SSA did not complete
the action within the designated timeframe. 17

For example, a March 2, 2011 EEOC decision ordered the Agency to pay the
complainant $2,000 in compensatory damages within 30 days of the date the decision
became final. OCREO provided a screen print from the Treasury Check Information
System that showed a $2,000 payment issued to the complainant. Also, we obtained a
copy of the check endorsed by the complainant. However, the check was issued on
May 6, 2011, about 1 month late.



17
  We did not receive any evidence that indicated the delays occurred as a result of external Agency
processing.


SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                                  4
An August 12, 2011 decision ordered the Agency to pay the complainant $12,000 in
compensatory damages within 60 days of the date the decision became final. OCREO
provided a screen print from the Treasury Check Information System showing a
$12,000 payment issued to the complainant. However, the payment was issued on
February 15, 2012, about 4 months late.

In August 2012, we provided OCREO with a list of these items for review and comment.
OCREO acknowledged these 26 items were not completed timely and stated the
Agency’s ability to comply with the orders in a timely manner was affected by

•   the lack of staff designated to manage compliance functions;
•   insufficient standard operating procedures for compliance;
•   a lack of timely and adequate communication and confirmation from EEOC of
    completed compliance actions that OCREO sent to EEOC; and
•   a lack of accurate EEOC tracking of timely compliance actions reported by OCREO.

OCREO stated it had implemented various steps, even before our review began, to
ensure compliance actions EEOC ordered were handled timely. Specifically, OCREO
reported it designated a compliance officer and backup. Additionally, OCREO
developed standard operating procedures for compliance, and senior management
provided oversight of compliance actions. Further, OCREO increased communication
with EEOC, regional CREO managers, and the Office of the General Counsel on
compliance actions.

Noncompliance
For 13 (10 percent) of the 132 actionable items, we determined SSA did not comply with
the EEOC orders. The orders included restoring leave, conducting training, paying
compensatory damages, posting a notice, and granting an award. All 13 actionable
items occurred in 1 region; therefore, the Agency does not believe this is indicative of a
widespread compliance problem. In August 2012, OCREO reported the regional staff
developed a compliance plan for these items. OCREO provided information concerning
the actions taken in August 2012 and the actions the region planned to take to comply
with the EEOC orders.

For example, a June 16, 2011 decision ordered the Agency to pay the complainant
$1,500 in compensatory damages and pay the monetary benefit associated with an
Exemplary Contribution or Service Award granted to the complainant. As of August
2012—over 1 year later—the complainant still had not received the money. On
August 28, 2012, CREO regional staff reported the compliance actions will be
completed within 60 days.




SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                    5
Compliance Undetermined
Because of the lack of documentation, we were unable to confirm compliance for
11 (8 percent) of the actionable items. This included such actions as paying
compensatory damages, conducting training, and considering disciplinary actions
against the responsible management official. During our review, OCREO provided
supporting documentation, but the evidence was incomplete. Therefore, we could not
fully confirm compliance. For example, one of the decisions ordered the Agency to pay
the complainant $25,000 in non-pecuniary compensatory damages plus interest from
the delay of payment. Based on the documentation provided, we were unable to
confirm the complainant was paid approximately $520 in interest.

OCREO’s Compliance Process
For 50 (38 percent) actionable items, SSA did not comply with the order, complete the
corrective actions timely, or provide sufficient documentation to confirm compliance.
Based on our interviews with OCREO staff and review of documentation, these issues,
in part, may have been due to the limited controls OCREO previously had for its
compliance process.

In addition to the previously noted deficiencies, we learned OCREO did not have a
complete, central repository for compliance matters. Compliance documentation
existed in both paper and electronic formats, as not all complaint information was stored
in the iComplaints Tracking and Data System (iComplaints). 18 As a result, iComplaints
did not always reflect the case’s status. Knowing the status of the EEOC cases and
having access to the related compliance documentation is important to managing the
workload. As illustrated during our review, the compliance officer had to coordinate with
various OCREO staff and/or other SSA components to identify the status of the cases
and locate compliance documentation for specific actions.

In Fiscal Year 2012, SSA appointed new staff in OCREO. The Acting Associate
Commissioner for OCREO acknowledged he was not comfortable with the level of
compliance when starting this new position in January 2012. 19 At that time, he did not
believe there was sufficient OCREO accountability for EEOC compliance orders. Under
new executive leadership in OCREO, a Senior Advisor was appointed to serve as
compliance officer. Since taking the position in February 2012, 20 the compliance officer
has implemented new processes for the Agency’s compliance with EEOC decisions.
According to the Agency, the new processes include

18
  OCREO uses iComplaints to store information associated with the complaint process. OCREO
reported it automated the EEO complaints process to improve timeliness as well as reduce personnel-
hours and operating costs.
19
     The Acting Associate Commissioner for OCREO has become the permanent Associate Commissioner.
20
   In August 2012, OCREO designated a new EEO compliance officer who reports to OCREO’s Director
of Business Operations.


SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                                  6
•   developing a standard operating procedure for compliance activities;
•   updating the Associate Commissioner biweekly on compliance matters;
•   issuing biweekly compliance status reports;
•   creating spreadsheets of all pending cases detailing the status of each case,
    pending actions, and follow-up requirements;
•   developing template email messages to inform regional CREO offices of compliance
    obligations in new EEO decisions; and
•   creating an electronic mailbox as a central repository for all compliance-related
    correspondence.

Additionally, the Agency stated the compliance officer took steps to improve
communication between the Agency’s regional offices and the EEOC’s compliance
staff. Further, at the Agency’s request, the EEOC regularly coordinates activities with
OCREO to ensure the Agency completes all pending compliance cases timely and
accurately.

The Agency also reported it had instituted additional changes since August 2012 as part
of an ongoing effort to enhance and refine its compliance process. The changes
include

•   working closely with the regional CREO offices to develop compliance plans for new
    EEOC decisions;
•   updating iComplaints to better track compliance requirements and serve as an
    improved repository for compliance documents; and
•   maintaining regular contact with the EEOC compliance officer, with proof of
    compliance sent to EEOC as soon as OCREO receives appropriate documentation.

With full implementation of these recent changes, the Agency reported it is able to
generate reports of all pending compliance requirements. Further, the Agency plans to
use its SharePoint site for compliance improvements, by providing a location for all
CREO regional offices to view pending compliance requirements. The use of
SharePoint will also allow OCREO to send periodic reminder messages regarding
upcoming compliance items.




SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                      7
                                                              Conclusion
Based on our analysis, we believe SSA complied with the EEOC orders for 108 of the
132 actionable items. However, 26 of those items were not completed timely.
Additionally, we found SSA did not comply with the EEOC orders for 13 of the items.
Further, we could not determine compliance for 11 actionable items due to a lack of
documentation.




SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                  8
                                         Appendices
APPENDIX A – Acronyms
APPENDIX B – Equal Employment Laws
APPENDIX C – Complaint Process
APPENDIX D – Scope and Methodology
APPENDIX E – Adverse Decisions




SSA’s Compliance with EEOC Decisions (A-13-12-22143)
                                                                     Appendix A

Acronyms
    CREO              Civil Rights and Equal Opportunity

    C.F.R.            Code of Federal Regulations

    EEO               Equal Employment Opportunity

    EEOC              Equal Employment Opportunity Commission

    iComplaints       iComplaints Tracking and Data System

    OCREO             Office of Civil Rights and Equal Opportunity

    OIG               Office of the Inspector General

    Pub. L. No.       Public Law Number

    SSA               Social Security Administration




SSA’s Compliance with EEOC Decisions (A-13-12-22143)
                                                                          Appendix B

Equal Employment Laws
The Equal Employment Opportunity Commission (EEOC) is responsible for enforcing
certain Federal laws that make it illegal to discriminate against a job applicant or an
employee because of the person’s race, color, religion, gender, national origin, age,
disability, genetic information, or in retaliation for complaining about discrimination, filing
a discrimination charge, or participating in an employment discrimination investigation or
lawsuit. The laws apply to employment and workplace situations including hiring, firing,
promotions, harassment, training, wages, and benefits.

Title VII of the Civil Rights Act of 1964 1
This law makes it illegal to discriminate against someone based on race, color, religion,
national origin, or gender. The law also makes it illegal to retaliate against a person
because the person complains about discrimination, files a charge of discrimination, or
participates in an employment discrimination investigation or lawsuit. The law requires
that employers reasonably accommodate applicants' and employees' sincerely held
religious practices, unless doing so would impose an undue hardship on the operation
of the employer's business.

Pregnancy Discrimination Act of 1978 2
This law amended Title VII of the Civil Rights Act of 1964 to make it illegal to
discriminate against a woman because of pregnancy, childbirth, or a medical condition
related to pregnancy or childbirth. The law also makes it illegal to retaliate against a
person because the person complains about discrimination, files a charge of
discrimination, or participates in an employment discrimination investigation or lawsuit.

Age Discrimination in Employment Act of 19673
This law protects people who are age 40 or older from discrimination because of age.
The law also makes it illegal to retaliate against a person because the person complains
about discrimination, files a charge of discrimination, or participates in an employment
discrimination investigation or lawsuit.




1
    Pub. L. No. 88-352, 78 Stat. 241.
2
    Pub. L. No. 95-555, 92 Stat. 2076.
3
    Pub. L. No. 90-202, 81 Stat. 602.

SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                       B-1
Sections 501 and 505 of the Rehabilitation Act of 19734
This law makes it illegal to discriminate against a qualified person with a disability while
working in the Government. The law also makes it illegal to retaliate against a person
because the person complains about discrimination, files a charge of discrimination, or
participates in an employment discrimination investigation or lawsuit. The law also
requires that employers reasonably accommodate the known physical or mental
limitations of an otherwise qualified individual with a disability who is an applicant or
employee, unless doing so would impose an undue hardship on the operation of the
employer's business.

Equal Pay Act of 1963 5
This law makes it illegal to pay different wages to men and women if they perform equal
work in the same workplace. The law also makes it illegal to retaliate against a person
because the person complains about discrimination, files a charge of discrimination, or
participates in an employment discrimination investigation or lawsuit.

Genetic Information Nondiscrimination Act of 20086
This law makes it illegal to discriminate against employees or applicants because of
genetic information. Genetic information includes information about an individual's
genetic tests and the genetic tests of an individual's family members as well as
information about any disease, disorder, or condition of an individual's family members
(that is, an individual's family medical history). The law also makes it illegal to retaliate
against a person because the person complains about discrimination, files a charge of
discrimination, or participates in an employment discrimination investigation or lawsuit.

Title I of the Americans with Disabilities Act of 19907
This law makes it illegal to discriminate against a qualified person with a disability in the
private sector and in State and local governments. The law also makes it illegal to
retaliate against a person because the person complained about discrimination, filed a
charge of discrimination, or participated in an employment discrimination investigation
or lawsuit. The law also requires that employers reasonably accommodate the known
physical or mental limitations of an otherwise qualified individual with a disability who is
an applicant or employee, unless doing so would impose an undue hardship on the
operation of the employer’s business.


4
    Pub. L. No. 93-112, 87 Stat. 355.
5
    Pub. L. No. 88-38, 77 Stat. 56.
6
    Pub. L. No. 110-233, 122 Stat. 881.
7
    Pub. L. No. 101-336, 104 Stat. 327.

SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                       B-2
ADA (Americans with Disabilities Act) Amendments Act of 20088
This law requires that employers, including the federal Government, construe the
definition of “disability” in favor of broad coverage, making it easier for an individual to
establish that he/she has a disability within the meaning of the Americans with
Disabilities Act. Congress stated specifically that the Americans with Disabilities Act
Amendments Act of 2008 also apply to section 501 of the Rehabilitation Act (which
covers Federal employment).




8
    Pub. L. No. 110-325, 122 Stat. 3553.

SSA’s Compliance with EEOC Decisions (A-13-12-22143)                                       B-3
                                                       Appendix C

Complaint Process




SSA’s Compliance with EEOC Decisions (A-13-12-22143)
                                                                                   Appendix D

Scope and Methodology
To achieve our objectives, we:

•     Obtained and reviewed applicable Federal laws and regulations, Equal Employment
      Opportunity Commission (EEOC) resources, and SSA guidance for handling
      discrimination complaints.
•     Interviewed personnel from the Social Security Administration’s (SSA) Office of Civil
      Rights and Equal Opportunity (OCREO) regarding the Agency’s complaint and
      compliance process.
•     Researched EEOC’s Website 1 and identified 41 adverse decisions against SSA from
      January 1, 2010 through April 30, 2012. Through further analysis of OCREO’s
      compliance logs and EEOC’s lists of Federal appeals pending, we identified an
      additional 19 decisions, 2 for a total of 60 adverse decisions. We excluded five
      decisions because the complaint had been withdrawn or the Agency and the
      complainant reached a settlement agreement.
•     To assess SSA’s compliance with the EEOC decision, we:
        Obtained and reviewed documentation regarding the actions taken by the
         Agency to comply with the order.
        Determined whether the Agency took the actions timely, as ordered by EEOC.
        Interviewed 15 (25 percent) complainants to obtain their opinion on whether they
         received full restitution from SSA, in accordance with the EEOC’s decisions. 3
        Interviewed OCREO officials, as appropriate, to obtain information regarding
         Agency actions taken for specific instances of adverse EEOC decisions.

We performed our review at SSA’s Headquarters in Baltimore, Maryland, from May to
August 2012. The primary entity reviewed was the Office of Civil Rights and Equal
Opportunity within the Office of Human Resources. We conducted our review in
accordance with the Council of the Inspectors General on Integrity and Efficiency’s
Quality Standards for Inspection and Evaluation.




1
    EEOC’s Federal Sector Appellate Decisions— http://www.eeoc.gov/federal/decisions.cfm.
2
  One of the 19 decisions occurred in 2009, before our review period. However, we included this decision
in our review because 3 of the 7 actionable items were completed during our review period.
3
 We did not interview the remaining complainants because (a) after two attempts, we could not reach the
complainant, (b) the case is still pending, (c) SSA reached a settlement agreement, (d) the complaint was
withdrawn, or (e) the status of the case had not yet been determined.


SSA’s Compliance with EEOC Decisions (A-13-12-22143)
                                                                    Appendix E

Adverse Decisions
We reviewed 55 decisions that the Equal Employment Opportunity Commission made
against the Social Security Administration (SSA). The following tables summarize the
cases by gender, SSA region/component, and type of discrimination.

                                  Table E-1: Gender

         Gender of Complainant        Number of Decisions        Percent
                 Male                         21                    38
                Female                        34                    62
                 Total                        55                   100

                            Table E-2: Region/Component

           Region/Component           Number of Decisions        Percent
                  Atlanta                     14                   25
                  Boston                       3                    5
                 Chicago                       7                   13
                  Dallas                       2                    4
                  Denver                       1                    2
              Headquarters                     7                   13
                New York                       8                   15
             Office of Central                 4                    7
               Operations
               Philadelphia                      5                  9
              San Francisco                      3                  5
                  Seattle                        1                  2
                   Total                        55                 100




SSA’s Compliance with EEOC Decisions (A-13-12-22143)                               E-1
                                Table E-3: Type of Discrimination

                                                    Number of
              Discrimination Alleged              Discrimination      Percent
                                                   Allegations 1
                       Gender                           18              16
                   Race or Color                        20              18
                   National Origin                      7               6
                         Age                            23              20
                      Disability                        18              16
                       Religion                         1               1
               Hostile Environment or                   21              19
                       Reprisal
              Failure to Accommodate                      5             4
                        Total                            113           100




1
    Some complainants alleged more than one type of discrimination.


SSA’s Compliance with EEOC Decisions (A-13-12-22143)                            E-2
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
